MEMORANDUM                                                                a




Date:          December 1,1999

To:

From:

Via:

Re:


Background
In June, 1999, we receive
Technology Center at the
inappropriate purchases
NSF program officer.

Investigation
We had several conversations wi                     t she did not provide us with examples of
specific instances of inappropriat-than                  her allegation that the Director o
forced her to use cost-sharing funds from her grant to purchase items for a faculty
                                          o heard from the program office that
                                          she took equipment that was identified
                                           agreement that she signed.

              also provided our office a copy of a grievance against
                 file. This ~ e v a n c contained
                                        e         allegations of miscon


Findings
Based on our discussions with
                               r               d this additional information, we concluded that
the issues she raised were primari y relate to potential problems with the management of this
Center and possible plagiarism, but there was no evidence of criminal conduct. Consequently,
we are closing this case and opening a misconduct case.

This case is closed.
